App. 1
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 19-2698
SHARON LYNN BROWN,
Plaintiff-Appellant,
v.
POLK COUNTY, WISCONSIN, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Western District of Wisconsin.
No. 3:18-cv-391—William M. Conley, Judge.
-----------------------------------------------------------------------

ARGUED APRIL 28, 2020—DECIDED JULY 13, 2020
-----------------------------------------------------------------------

Before EASTERBROOK, RIPPLE, and SCUDDER, Circuit Judges.
SCUDDER, Circuit Judge. Sharon Brown was a detainee at the Polk County Jail who underwent a physical search of her body cavities. The institution had a
written policy authorizing such a search to be conducted by medical personnel when there was reasonable suspicion to believe an inmate was internally
hiding contraband. Fellow inmates had reported that

App. 2
Brown was concealing methamphetamine inside her
body, and that prompted jail staff to invoke the policy.
Officers took Brown to a hospital, where a doctor and
nurse inspected both her vagina and rectum. The
search revealed no drugs.
Brown sued Polk County and several jail officials
under 42 U.S.C. § 1983 alleging a violation of her
Fourth Amendment rights. The defendants moved for
summary judgment, and the district court granted the
motion, concluding that the defendants had reasonable
suspicion that Brown was concealing contraband, their
suspicion justified the cavity search, and the ensuing
search was reasonable. We agree and affirm.
I
Sharon Brown landed in the Polk County Jail in
May 2017 after an arrest for shoplifting. The record
does not reveal whether a judge ordered the detention or whether Brown was held while awaiting an
initial presentment in court. The next day, Jacqueline Duke, an inmate who shared her housing unit,
told Correctional Officer Steve Hilleshiem that
Brown was hiding “a large amount” of methamphetamine in a body cavity. Officer Hilleshiem had little
background information—he did not know Duke or
Brown, what either inmate was in for, or whether they
had any relationship—but he relayed the allegation to
Nurse Donna Johnson, who was more familiar with
Duke.

App. 3
Nurse Johnson’s prior dealings with Duke had left
her untrusting of her word, so she decided to consult
Amy Nelson, who she considered to be a more reliable
inmate living in the unit. Nelson corroborated Duke’s
accusation with more detail. She said Brown had told
other inmates that she was hiding between a quarter
gram and an “eight ball”—which amounts to about 3.5
grams—of methamphetamine inside her body. According to Nelson, the drugs were not sealed properly, so
Brown had been looking for somewhere else to hide
them. Nelson further reported that she had seen
Brown use the bathroom multiple times and that other
inmates were worried.
Nurse Johnson discussed the situation with Officer Hilleshiem and other staff members, and the
group collectively decided to request a cavity search.
Polk County has a policy that allows a detainee’s body
cavities to be searched when an officer has “reasonable grounds to believe that the person is concealing
weapons, contraband, or evidence in a body cavity, or
otherwise believes that the safety and security of the
jail would benefit from a body cavity search.” The policy defines “body cavity search” as “an inspection and
penetration of the anal or vaginal cavity of a person
that is conducted manually, by means of an instrument,” or “in any other manner.” It further provides
that the search must “be performed only by medical
personnel licensed in the State of Wisconsin.” Officer
Hilleshiem contacted Chief Deputy Wes Revels, the
jail’s administrator, for approval and expressed his
view that officials had gathered enough evidence to

App. 4
justify a search under the policy. Based on those representations, Chief Deputy Revels authorized the
search.
Officers took Brown to a local hospital, where a
doctor and nurse performed the search in a private
room without any officers present. The doctor first
administered an ultrasound of Brown’s abdomen.
The procedure revealed no contraband. He then
conducted a vaginal exam by inserting a speculum
to spread and hold open the vaginal walls to see
inside. This exam was brief and similar to a routine pelvic exam or a pap smear. The rectal exam began in much the same manner—the doctor used a
speculum to widen the anus and peer inside. But during the procedure, the doctor’s headlamp failed. With
the speculum remaining in her anus, Brown had
to wait while the doctor looked for an alternate light
source. In the end, the search yielded no contraband.
The parties dispute how long these exams lasted.
Brown testified that the ultrasound took about five
minutes and the vaginal exam “didn’t take long at
all.” As for the rectal exam, Brown did not say how
long it lasted but explained that when the doctor’s
headlamp failed, “it seemed like it took forever for
them to find a light that worked.” For their part, the
defendants point to the testimony of a police officer
who transported Brown from the jail to the hospital.
He estimated that “under a minute” elapsed between
the time the medical personnel entered the room and
when Brown left.

App. 5
Brown sued the County, Officer Hilleshiem, and
Chief Deputy Revels. She contended that the Fourth
Amendment requires jail officials to get a warrant
based on probable cause before ordering a body cavity search and that the defendants’ failure to do so
violated her constitutional rights. And because the
jail’s express policy permitted that practice, she
sought to hold the County liable under Monell v. Department of Social Services, 436 U.S. 658 (1978).
The defendants successfully moved for summary judgment. The district court concluded that
the Fourth Amendment requires reasonable suspicion to justify the kind of search Brown underwent and that the officers had just that. The court
also found the search to have been conducted reasonably, as it was performed by medical professionals in a private, hygienic location and lasted
only a short time. Finding no constitutional violation, the court concluded that the Monell claim
failed too.
Brown now appeals.
II
Incarceration curbs constitutional protections
but it does not extinguish them. See Turner v. Safley,
482 U.S. 78, 84 (1987). Among a pretrial detainee’s
retained but limited rights is the Fourth Amendment’s guarantee of “[t]he right of the people to be
secure in their persons . . . against unreasonable
searches and seizures.” The inspection of Brown’s

App. 6
body cavities was a search to which the Fourth
Amendment applies, and the defendants are wise to
leave that undisputed. See Florence v. Bd. of Chosen
Freeholders of County of Burlington, 566 U.S. 318
(2012) (applying the Fourth Amendment to a strip
search of a pretrial detainee).
But the Fourth Amendment does not prohibit all
searches, only unreasonable ones. See Maryland v.
King, 569 U.S. 435, 446–47 (2013). We evaluate reasonableness by balancing “the need for the particular
search against the invasion of personal rights that the
search entails.” Bell v. Wolfish, 441 U.S. 520, 559 (1979).
In doing so, we consider “the scope of the particular intrusion, the manner in which it is conducted, the justification for initiating it, and the place in which it is
conducted.” Id.
Summary judgment is appropriate only if the defendants have shown that no material facts are in
dispute and they are entitled to judgment as a matter of law. See FED. R. CIV. P. 56(a). We review de novo
the district court’s grant of summary judgment,
viewing all facts in the light most favorable to Brown
and drawing all reasonable inferences in her favor.
See Hackett v. City of S. Bend, 956 F.3d 504, 507 (7th
Cir. 2020).
A
Our usual starting point for the reasonableness
inquiry is whether government officials had “some
quantum of individualized suspicion” necessary to

App. 7
justify the search. King, 569 U.S. at 447 (quoting
United States v. Martinez-Fuerte, 428 U.S. 543, 560–61
(1976)). But individualized suspicion is not an “irreducible” constitutional mandate. Id. Suspicionless
searches are permitted in limited circumstances, like
when they serve “special needs, beyond the normal
need for law enforcement.” City of Indianapolis v.
Edmond, 531 U.S. 32, 37 (2000). Indeed, twice the
Supreme Court has confronted circumstances under
which the special context of a jail—with the unique
challenges it presents—allows for suspicionless
searches of pretrial detainees’ body cavities.
In Bell v. Wolfish, the Court upheld the constitutionality of a jail policy requiring all inmates to undergo a strip search, including a visual examination of
their body cavities, every time they returned from a
contact visit. 441 U.S. at 558–60. In so holding, the
Court emphasized the government’s interest in performing such searches, observing that “[a] detention
facility is a unique place fraught with serious security
dangers” and “[s]muggling of money, drugs, weapons,
and other contraband is all too common an occurrence.”
Id. at 559. Even pitted against the significant privacy
invasion that these searches posed to the inmates, the
gravity of the jail’s security interests nevertheless
tipped the scale away from a particularized suspicion
requirement and instead counseled in favor of a
broader, categorical rule authorizing visual strip
searches following contact visits. See id. at 560.
The Supreme Court reinforced this holding in
Florence v. Board of Chosen Freeholders of the County

App. 8
of Burlington, rejecting a Fourth Amendment challenge to a jail policy that authorized an invasive
search, which again included visual inspections of body
openings, during the intake process for pretrial detainees. 566 U.S. at 324, 339. In Florence, too, the Court
underscored the acute threat of contraband in the jail
setting. See id. at 332–34 (explaining how drugs can
embolden aggression, contraband can be used as underground currency, and prohibited items can become
weapons). It therefore concluded that the search procedure “struck a reasonable balance between inmate
privacy and the needs of the institutions.” Id. at 339.
The search in this case does not similarly belong
in the “closely guarded category of constitutionally permissible suspicionless searches.” Chandler v. Miller,
520 U.S. 305, 309 (1997). In no way do Bell and Florence declare detainees’ bodies open for search at any
time and under any circumstance. Nor do the defendants urge the adoption of any new broad rule authorizing searches of pretrial detainees. Put another way,
the “touchstone” of the controlling Fourth Amendment
inquiry remains reasonableness. King, 569 U.S. at 448.
And in the circumstances before us here, reasonableness requires a finding of particularized suspicion.
A core purpose of the Fourth Amendment’s reasonableness standard is to constrain government officials’
discretion and thus “safeguard the privacy and security of individuals against arbitrary invasions.” See
Delaware v. Prouse, 440 U.S. 648, 654 (1979) (citations
omitted). The searches at issue in Bell and Florence
concerned policies that applied broadly to all detainees

App. 9
following contact visits and upon their entry into a facility. See 441 U.S. at 558 (evaluating a policy subjecting inmates to strip search “after every contact visit
with a person from outside the institution”); 566 U.S.
318 at 324 (considering a policy making “all arriving
detainees” subject to search). That general applicability both advanced important institutional interests (of
preventing contraband) and protected the inmates
from being singled out for a search at the whim of a
guard, even without the safeguard of an individualized
suspicion requirement. See King, 569 U.S. at 447–48
(explaining that there is no need for individualized
suspicion where “all arrestees” were subject to the
search).
Brown was not searched as part of a practice that
applied to everyone housed in the Polk County Jail.
She alone was selected for a search, and a quite invasive one at that. In these circumstances, the search
must be supported by reasonable suspicion. See New
Jersey v. T.L.O., 469 U.S. 325, 342 n.8 (1985) (“Exceptions to the requirement of individualized suspicion
are generally appropriate only where the privacy interests implicated by a search are minimal and where
other safeguards are available to assure that the individual’s reasonable expectation of privacy is not subject to the discretion of the official in the field.”
(internal quotation marks omitted)). That conclusion
finds corroboration in some of our prior cases that have
required reasonable suspicion for individualized visual
strip searches conducted after an arrest or during the
booking process. See United States v. Freeman, 691

App. 10
F.3d 893, 901 (7th Cir. 2012); Kraushaar v. Flanigan,
45 F.3d 1040, 1045 (7th Cir. 1995).
Brown would have us adopt a higher standard of
suspicion and require a warrant based on probable
cause. For support, she points to Schmerber v. California, 384 U.S. 757 (1966) and Winston v. Lee, 470 U.S.
753 (1985), cases addressing physical—as opposed to
visual—searches of people’s bodies undertaken to obtain evidence. Schmerber involved a warrantless blood
draw performed on a hospitalized man who had just
been arrested for driving while intoxicated, see 384
U.S. at 758–59, and Winston concerned a surgery to
retrieve a bullet from a detainee’s body to be used as
evidence in a prosecution for robbery, see 470 U.S. at
755. Neither implicated jail security, the interest that
weighs so heavily in the balance of the search here.
Bell and Florence underscore the necessity of a
jail’s ability to search those under its care for contraband, for the protection of all within its walls. Our conclusion that the precise searches at issue in those cases
differ from the one here in the scope of discretion does
not in any way undermine the importance of these
interests. They apply with equal force and distinguish
Brown’s search from the ones in Schmerber and Winston. A search conducted for the safety of the jail is one
that furthers special needs beyond the normal need for
law enforcement, and “the public interest is such that
neither a warrant nor probable cause is required.”
King, 569 U.S. at 447 (quoting Maryland v. Buie, 494
U.S. 325, 331 (1990)).

App. 11
Brown correctly observes that the search she underwent was more invasive because it was not just visual but also involved a physical intrusion into the
most private parts of her body. No doubt she is right on
that score. But given the heft of the security interest
at stake, the invasion to her privacy was not so much
greater that it pushes the threshold suspicion requirement into probable cause. The Fourth Amendment required Polk County jail officials to have only
reasonable suspicion that she had concealed contraband inside her body before moving forward with the
search.
And they did. Officer Hilleshiem and Chief Deputy
Revels relied on tips from both inmates Duke and Nelson, and a credible tip from a reliable informant can
support reasonable suspicion. See Adams v. Williams,
407 U.S. 143, 146–47 (1972). Nelson’s information in
particular bore several signs of reliability—Nurse
Johnson considered her to be credible and her account
was detailed, based on firsthand observations, and recounted recent events. See United States v. Cherry,
920 F.3d 1126, 1133–34 (7th Cir. 2019). Chief Deputy
Revels authorized the search in reliance on Officer
Hilleshiem’s representation that the evidence was sufficient to support a search under the County’s policy, so
the collective-knowledge doctrine imputes knowledge
of the reported information to him. See United States
v. Williams, 627 F.3d 247, 252 (7th Cir. 2010). This
leaves no issue of fact as to the existence of reasonable
suspicion.

App. 12
B
The inquiry does not end there. That the defendants
met the requisite level of individualized suspicion is
just one component of the search’s reasonableness. We
must go on to consider the scope of the search, the
manner in which it was conducted, and the place in
which it occurred. See Bell, 441 U.S. at 559. “Urgent
government interests are not a license for indiscriminate police behavior.” King, 569 U.S. at 448.
We strain to conceive of a search more invasive
than the one performed on Brown. Even a visual scan
of a bare body is an extraordinary interference with
privacy. See Bell, 441 U.S. at 558–60; Tinetti v. Wittke,
479 F. Supp. 486, 491 (E.D. Wis. 1979), aff ’d and
adopted, 620 F.2d 160, 160–61 (7th Cir. 1980) (describing “the visual inspection of the anal and genital areas”
as “demeaning, dehumanizing, undignified, humiliating, terrifying, unpleasant, embarrassing, repulsive,
signifying degradation and submission”). In Brown’s
case, it was not only someone visually inspecting her
naked body and closely examining the most private
parts but someone who did so by making physical contact, prying open her vagina and anus.
A privacy invasion of that magnitude must be carried out with careful attention to limiting its scope and
minimizing the intrusion. The defendants did that. The
search was performed pursuant to a written policy
with defined procedures that required reasonable suspicion and approval from the jail’s chief deputy. So, too,
was it conducted in a medical setting by licensed

App. 13
medical professionals. See Sanchez v. Pereira-Castillo,
590 F.3d 31, 44 (1st Cir. 2009) (observing that doctors
conducting search in a hygienic setting weighed in favor of reasonableness). And Brown was afforded some
measure of privacy, undergoing the search outside the
presence of any officers. Cf. Campbell v. Miller, 499
F.3d 711, 718 (7th Cir. 2007) (finding unreasonable a
strip search where “the police inexplicably did not even
afford [the arrestee] the dignity of doing it in a private
place”).
The search was also completed within a reasonable
timeframe. By Brown’s own account, the ultrasound
and vaginal exam proceeded swiftly. The untimely
failure of the doctor’s headlamp added some length to
the ordeal, minutes that surely felt like an eternity to
Brown. But the accidental delay cannot be attributed
to the defendants. And the only evidence we have of the
total duration of the search, all exams combined, comes
from the transporting officer, who testified that it was
very brief.
With these observations, we do not prescribe constitutional mandates or minimums. Other cases are
sure to present different facts showing different levels
of care—in some cases more, in others less—taken by
jail officials in authorizing and executing a challenged
search. The reasonableness inquiry is fact intensive.
For today’s case we conclude no more than that the factors present here would leave a rational jury with no
option but to find the search reasonable.

App. 14
III
Nobody disputes the invasiveness of the search
that Brown underwent. Her body was laid bare not
just for visual inspection but for physical prodding, an
intrusion of privacy to the highest degree. Her incarcerated status did not strip her of the Fourth Amendment’s protection. Nor, however, does the Fourth
Amendment ignore the realities of the jail setting and
its attendant security risks. The balance of the intrusion to Brown and the weight of jail safety concerns
comes out to a requirement of reasonable suspicion to
justify the search. A rational jury could reach no other
conclusion than that the defendants complied with the
threshold suspicion requirement and executed the
search reasonably, meaning there was no constitutional violation. That finding defeats the Monell claim
too. See Hall v. City of Chi., 953 F.3d 945, 955 (7th Cir.
2020).
For these reasons, we AFFIRM.

App. 15
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
SHARON LYNN BROWN,
Plaintiff,
v.
POLK COUNTY, WISCONSIN,
CO STEVEN HILLESHIEM,
CO JANET LEE, CHIEF
DEPUTY WES REVELS,
and POLK COUNTY
CORRECTIONAL OFFICERS
JOHN DOE 1-10,

OPINION
AND ORDER
18-cv-391-wmc
(Filed Aug. 16, 2019)

Defendants.
While incarcerated at the Polk County Jail, plaintiff Sharon Lynn Brown (neé Smith) was subjected to
a body cavity search following reports by other inmates
that she had concealed methamphetamine in her person.1 The cavity search found no foreign objects or materials. Brown is suing the officers allegedly involved
in the search, as well as the County, alleging that they
violated her Fourth Amendment rights by conducting
a body cavity search without probable cause and a warrant.2 Presently before the court is defendants’ motion
1

Although plaintiff went by Smith during the relevant time
period, she will be referred to as Brown for purposes of this opinion.
2
Plaintiff also raised a failure-to-train claim under the
Fourth Amendment, however, she has waived that claim by failing to respond to defendants’ arguments at summary judgment.

App. 16
for summary judgment. (Dkt. #11.) For the reasons set
forth below, this motion will be granted.
UNDISPUTED FACTS3
A. Background
A citizen of Minnesota, Brown was incarcerated at
the Polk County Jail at all times relevant to this lawsuit. Polk County is located in northwestern Wisconsin. Defendant Janet Lee is a correctional officer at the
County Jail. Defendant Steve Hilleshiem also served
as a correctional officer at the Jail from January 2003
until mid-July 2018. Defendant Wes Revels was the
Jail’s chief deputy from June 2016 through March
2018; he also served as the Jail Administrator starting
in early 2017.
B. Policy Governing Cavity Searches
During the relevant time, Polk County had a policy requiring all body cavity searches be performed by
a physician, a Wisconsin-licensed registered nurse, or
physician’s assistant. Correctional officers could request a cavity search based on “reasonable grounds to
believe that the [detained] person is concealing weapons, contraband, or evidence in a body cavity, or otherwise believes that the safety and security of the
jail would benefit from a body cavity search.” (Search
3

Viewing the evidence and reasonable inferences in a light
most favorable to plaintiff as the nonmoving party, the following
facts are undisputed for purposes of summary judgment, except
where noted below

App. 17
Policy (dkt. #12-1) 6.) When reasonable grounds exist,
a correctional officer was to make the request for a
body cavity search by contacting the shift supervisor,
who would then “make the proper arrangements for
such a search.” (Id.) Additionally, the Jail administrator’s prior approval was required. (Id.)
C. Brown’s Incarceration
Brown was held in custody at the Polk County Jail
from May 3-5, 2017. She arrived at the Jail shortly after midnight on May 3, following her arrest for retail
theft. On May 3 and 4, Brown was housed in the K Pod
with inmates Jacqueline Duke and Amy Nelson. According to Nelson, she had never seen or met Brown
before then. (Nelson Decl. (dkt. #15) ¶ 8.)
On May 4, 2017, Duke approached defendant Hilleshiem during medication pass and reported that
Brown was concealing “a large amount” of meth in her
body cavity. Duke did not say that she had seen the
contraband. On the hand, Officer Hilleshiem had no
reason to believe – or even suspect – that Duke was
lying. At the time, Hilleshiem did not know (1) Duke or
her background, (2) why Brown was incarcerated, or
(3) if Duke had a relationship with Brown. He also did
not inquire into these matters. (Hilleshiem Dep. (dkt.
#14) 18:2-13; see also id. 31:25-32:4 (testifying the reason Brown was incarcerated would not have changed
his analysis).) Nevertheless, based on his training
and experience, he believed Duke. Hilleshiem then
spoke with non-defendants, Jail Nurse Donna Johnson,

App. 18
Sheriff Pete Johnson, and Sergeant Matt Thayer about
Brown. Hilleshiem did not speak to Inmate Nelson.
After talking to Hilleshiem, Nurse Johnson spoke
with Nelson, Brown and a third inmate. By May 2017,
Nurse Johnson had worked at the Polk County Jail for
approximately 20 years, during which time she had
daily contact with inmates. She had also been a Certified Correctional Health Professional since at least
1997.4 Over the course of her time working at the Jail,
Nurse Johnson often received written or verbal reports
about inmates concealing contraband, hording medication, or acting inappropriately from other inmates.
Rarely would these reports result in a formal investigation because through speaking with the inmates involved it often became clear that one inmate was
trying to get another in trouble. She drew these conclusions based on her training and experience, her perceived credibility of those involved and the content of
the report, such as the detail of the information provided.
As opposed to the frequent, unfounded reports
Nurse Johnson received when one inmate was trying
to get another in trouble, Nelson’s report was very detailed. Nelson informed Johnson that after arriving at
K Pod, Brown told Nelson and some of the other inmates that she was concealing between a quarter gram
and an eight ball of meth inside her body cavity and
4

The correctional health professional certification focuses on
medical and legal standards applicable to healthcare professionals who work with inmates.

App. 19
asked if they had something else she could conceal the
drugs in because she was concerned that: (1) she might
absorb the drugs; (2) they were not sealed properly;
or (3) they would be found. (Nelson Decl. (dkt. # 15)
¶¶ 9-10, 15.) Brown disputes that she told Nelson any
of that. (See Brown Dep. (dkt. # 17) 101:14-102:8 (testifying that she did not recall speaking with Nelson or
Duke but that she “had a couple girls telling [her] like
the rules or, you know, the things you can and can’t do
while you’re there”).) However, she does not otherwise
dispute what Johnson or Hilleshiem may have heard
from Duke or Nelson. (See Defs.’ Reply to Pl.’s Resp. to
Defs.’ PFOF (dkt. #26) ¶¶ 24, 33, 38-42.)
Because Nurse Johnson found the information
provided by Nelson was not typical of an unfounded allegation – due both to the level of detail and the credibility of the inmates providing the information – she
did not believe that the inmates who provided the information had an ulterior motive. Instead, Nurse Johnson concluded that the report warranted further
investigation, including a cavity search. Hilleshiem
also concluded a cavity search was reasonable, although he also testified that he would order a body cavity search any time he got a report that an inmate had
contraband in their body cavity. (Hilleshiem Dep. (dkt.
#17) 19:3-11, 23:2-9.)
Nurse Johnson and other staff members at the Jail
then discussed the situation, including the information
obtained, their opinions and recommendations, as well
as concerns about safety and security, both Brown’s
and the other inmates’. Hilleshiem specifically was

App. 20
concerned about Brown’s safety, as well as the safety of
the other inmates.5 At the end of that discussion, jail
staff collectively concluded that Brown should be sent
for a cavity search.
Hilleshiem then contacted Wes Revels, the jail administrator, for approval, informing him that Brown
reportedly told another inmate that she was concealing drugs in a body cavity and two other inmates reported that fact to jail staff. CO Hilleshiem also told
Revels that in his view this information met the policy
requirements for a cavity search. Purportedly taking
Hilleshiem’s word for it, Revels agreed and authorized
the search. In particular, Revels’ understood that
Brown was concealing contraband in her vagina, instead of her anus, but did not know the basis for that
conclusion. He, himself, did not speak to the inmates
who had reported Brown, nor did he speak to Nurse
Johnson; he also did not ask Hilleshiem to investigate
any further.6 Revels did, however, pull Brown’s jail file
or otherwise inquire why she was jailed.
5

Hilleshiem testified that regardless of whether Duke was
lying, he “ha[d] a policy to follow,” such that if Brown “really ha[d]
contraband inside of her and she die[d] or one of the other girls in
there die[d] from it,” then he “ha[d]n’t done [his] job”; on “the flip
side[,] . . . if [he] d[id his] job based on what [he had] been told, it
[wa]s not for [him] to decide if [the report was] true” – his “job
[was] to follow up on it based on the best of [his] ability.” (Hilleshiem Dep. (dkt. #14) 29:4-23.)
6
While Revels testified that he would consider the credibility
of the inmates in making the accusation as a factor in determining the reasonableness of a cavity search, in this instance, he
acknowledged not investigating the complaining inmates’ credibility, knowing nothing about their credibility, and not asking

App. 21
Following medication pass on May 4, 2017, staff
members then returned and asked Brown to exit
K Pod, at which point she was escorted to another room
and told to wait. After being escorted to yet another
room, Jail staff asked Brown if she “had anything” on
her. After she answered in the negative, Brown then
asked to use the restroom, at which point she was escorted to the bathroom by a female staff member. Consistent with jail protocol, requiring monitoring of an
inmate suspected of having contraband when an inmate wanted to use the bathroom, that staff member
monitored Brown while she did so.
After using the bathroom, Brown was then handcuffed, leg shackled, and escorted to the back of a squad
car by Polk County Deputy Anthony Lehman, where
Brown was informed that she was being transported to
St. Croix Hospital for a cavity search. Hearing this,
Brown did not respond or ask why, nor was she ever
told another inmate had reported that she had contraband. While in the squad car, Brown not only had
handcuffs and leg shackles, but possibly a “belly” belt.
Defendant Lee was not working nor even present at
the Jail when Brown was taken for the cavity search.
At St. Croix Hospital, Brown and Deputy Lehman
waited for about an hour before a nurse brought them
into a private room, at which point Lehman removed
the handcuffs. The nurse then asked Brown some questions, before providing her with a gown. While Brown
Hilleshiem if he knew the complaining inmates, their credibility
or possible ulterior motives.

App. 22
changed, Deputy Lehman left the room, returning once
Brown was in the gown. At that point, the nurse
handed Brown the television remote and advised them
that the hospital was very busy, so they would have to
wait for the actual search. Following a further wait, the
nurse and a doctor returned to the room, at which point
Deputy Lehman left again.
The medical professionals then explained that the
doctor would perform the cavity search, and the doctor
specifically explained that he would perform an ultrasound of her abdomen, a vaginal exam, and then an
anal exam. The doctor performed: the ultrasound using
an external probe; the vaginal exam with a speculum,
which was similar to a routine pelvic examination or
pap smear; and finally, the anal exam with a speculum.
During the anal exam, there was a technical problem
with the light, requiring the medical professionals to
find another. While they searched, the speculum remained in her anus. Still, the entire cavity search took
less than five minutes, and ultimately the doctor did
not locate any foreign objects.
Immediately after the doctor concluded the anal
exam, Brown began crying. Lehman then transported
Brown back to the Jail. Upon return to the Jail, Brown,
who was still crying, asked to stay in a holding cell until the next morning, when she was to be transferred to
Barron County, not wanting to cry in front of the other
inmates. She cried herself to sleep that night in the
holding cell.

App. 23
Following this event, Brown has been anxious, depressed, and afraid of going outside, being pulled over
or going to jail. She also does not like to be alone with
men. (Brown Dep. (dkt. #17) 53:18-54:6.)
OPINION
Summary judgment is appropriate if the moving
party shows that: (1) “there is no genuine dispute as to
any material fact”; and (2) the party “is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). The
court’s role at summary judgment is not to “weigh evidence, make credibility determinations, or decide
which inferences to draw from the facts”; rather, its
role is “to determine whether there is a genuine issue
of triable fact.” Kirkwood v. DeLong, 683 F. Supp. 2d
823, 826 (N.D. Ind. 2010) (citing Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986); Washington v.
Haupert, 481 F.3d 543, 550 (7th Cir. 2007); Payne v.
Pauly, 337 F.3d 767, 770 (7th Cir. 2003)).
As an initial matter, plaintiff sued CO Janet Lee.
She appears to have had no involvement in the underlying events and is entitled to summary judgment
without further discussion. Minix v. Canarecci, 597
F.3d 824, 833-34 (7th Cir. 20 10) (“[I]ndividual liability
under § 1983 requires personal involvement in the alleged constitutional deprivation.”).7 The evidence as to
7

Plaintiff has failed to amend the complaint to identify the
John Doe defendants and permitting her to do so now would be
unduly prejudicial. Accordingly, they are also entitled to summary judgment.

App. 24
CO Hilleshiem is only slightly stronger, since there is
no dispute that Duke had told him that Brown admitted hiding a large quantity of meth in her body cavity,
and Nurse Johnson told Hilleshiem that Nelson said
roughly the same, which she believed, and that he accurately relayed that information to Administrator
Revels. That ends Hilleshiem’s role here, having duly
turned the matter over to Chief Deputy Revels. Even if
a jury could infer that Hilleshiem knew that Revels
would ultimately approve the request for a body cavity
search to proceed at the hospital, there is no basis for
a reasonable jury to find that he knew something was
in any way amiss. Regardless, since none of this approaches misconduct, much less an illegal search under the Fourth Amendment, no evidence supports a
claim against Hilleshiem either.8 (See Defs.’ Reply to
Pl.’s Resp. to Defs.’ PFOF (dkt. #26) ¶ 62.)
As to the remaining defendants, Chief Deputy
Revels and Polk County contend that they are entitled
to summary judgment because all that was needed
was “reasonable suspicion” to conduct the challenged
search – not probable cause or a warrant – and the
search was conducted in a reasonable manner. (Defs.’
Summ. J. Br. (dkt. #20) 12-17.) Plaintiff disagrees,
8

One way he could be liable would be under a “cat’s paw”
type theory, which would postulate that Revels was an unbiased
decisionmaker, but improperly influenced by Hilleshiem, resulting in him unwittingly acting as a biased non-decisionmaker’s
“cat’s paw.” See Schandelmeier-Bartels v. Chi. Park Dist., 634
F.3d 372, 378-79 (7th Cir. 2011). However, there is no allegation
that Hilleshiem was either biased, nor that he misled Revels in
any way.

App. 25
arguing that defendants needed both probable cause
and a warrant to proceed with a cavity search, and
since they had neither, the cavity search was unreasonably conducted. (Pl.’s Opp’n (dkt. #22) 10-20.)
Brown also disputes defendants’ argument as to their
reasons for reasonable suspicion. (Id. at 20-28.)
The Fourth Amendment provides that “[t]he right
of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated. . . .” U.S. Const. Amend.
IV.9 This includes “the right to be free from unreasonable searches of one’s unclothed body.” Stanley v. Henson, 337 F.3d 961, 963 (7th Cir. 2003) (internal citation
omitted).10 While the Fourth Amendment generally requires the issuance of a warrant based on probable
cause before a search may proceed, “the Supreme
Court has recognized several exceptions to the warrant
requirement.” Id. (citations omitted). Among those exceptions are warrantless body cavity searches of an individual in custody provided reasonable suspicion of
9

The protections of the Fourth Amendment were extended
to the states under the Fourteenth Amendment. See Zoretic v.
Darge, 832 F.3d 639, 643 (7th Cir. 2016) (“The Fourth Amendment’s protections against unreasonable searches and seizures is
made applicable to state actors under the Fourteenth Amendment.” (citing DKCLM, Ltd. v. Cnty. of Milwaukee, 794 F.3d 713,
714 (7th Cir. 2015))).
10
In Stanley, plaintiff challenged a clothing-exchange that
involved her changing out of her street clothes into a jail uniform
while being watched by a same-sex officer, in which her breasts
were exposed because she had not worn a brassiere as an unreasonable strip search. The Seventh Circuit found that this search
was reasonable and did not violate the Fourth Amendment.

App. 26
the presence of a weapon or contraband. See United
States v. Freeman, 691 F.3d 893, 901-02 (7th Cir. 2012)
(finding reasonable suspicion sufficient to conduct
strip search of defendant that found cocaine between
his buttocks before he was booked into jail based on (1)
his arrest for attempted cocaine distribution, (2) a drug
dog’s alerting to the presence of drugs at the scene of
the traffic stop where no drugs were found, (3) his attempted sale of cocaine before the stop, (4) knowledge
that he had a tendency to conceal drugs between his
buttocks and (5) his uncomfortable fidgeting at the police station); Campbell v. Miller, 499 F.3d 711, 717 (7th
Cir. 2007) (agreeing with jury that police had reasonable suspicion for cavity search of marijuana-possessing
arrestee); Mary Beth G. v. City of Chi., 723 F.2d 1263,
1273 (7th Cir. 1983) (concluding that Chicago’s blanket
policy requiring visual cavity inspection of female misdemeanor arrestees was unreasonable and violated
the Fourth Amendment because “the ‘need for the particular search,’ a strip search, is hardly substantial
enough, in light of the evidence regarding the incidence of weapons and contraband found in the body
cavities of women minor offenders, to justify the severity of the governmental intrusion” without “reasonable
suspicion by the authorities that either of the twin
dangers of concealing weapons or contraband existed”);
Doe v. Village of Downers Grove, No. 91 C 2 722, 1992
WL 8720, at *2 (N.D. Ill. Jan. 15, 1992) (“The Seventh
Circuit has articulated both the ‘reasonable suspicion’
and ‘probable cause’ standards” for evaluating strip
searches.) (collecting cases).

App. 27
Even so, searches of individuals in custody must
be reasonable. Stanley, 337 F.3d at 963 (citations omitted). Courts determining the constitutionality of a
search balance “the need for the particular search
against the invasion of personal rights that the search
entails”; in doing so, considerations include “the scope
of the particular intrusion, the manner in which it is
conducted, the justification for initiating it, and the
place in which it is conducted.” Campbell, 499 F.3d at
716 (quoting Bell v. Wolfish, 441 U.S. 520, 559 (1979)).
As the intrusiveness of the search increases “the closer
governmental authorities must come to demonstrating
probable cause for believing that the search will uncover the objects for which the search is being conducted.” Id. (quoting Mary Beth G, 723 F.2d at 1273).
For example, in Campbell, the Seventh Circuit ultimately concluded that the search was conducted in
an unreasonable manner because it was conducted in
public and exposed Campbell’s private parts. 499 F.3d
at 718. While difficult to define, reasonable suspicion
itself “is a commonsense, nontechnical concept that
deals with the factual and practical considerations of
‘everyday life on which reasonable and prudent [people], not legal technicians, act.’ ” United States v. Lawshea, 461 F.3d 857, 859 (7th Cir. 2006) (quoting Ornelas
v. United States, 517 U.S. 690, 695 (1996)).11 While
11

In Lawshea, the Seventh Circuit considered whether police
had reasonable suspicion to conduct the Terry stop leading to defendant’s arrest, ultimately finding that defendant’s flight in a
high-crime area a little before midnight provided enough for reasonable suspicion. 461 F.3d at 859.

App. 28
reasonable suspicion “is a less demanding standard
than probable cause and requires a showing considerably less than preponderance of the evidence, the
Fourth Amendment requires at least a minimal level
of objective justification.” Id. (quoting Illinois v. Wardlow, 528 U.S. 119, 123 (2000)). Put another way, “reasonable suspicion is less than probable cause but more
than a hunch.” Id. (citing United States v. Lenoir, 318
F.3d 725, 729 (7th Cir. 2003)). On the other hand,
“[p]robable cause exists when based on the known
facts and circumstances, a reasonably prudent person
would believe that contraband or evidence of a crime
will be found in the place to be searched.” United States
v. Edwards, 769 F.3d 509, 514 (7th Cir. 2014). Regardless of which standard ultimately applies, the question
is still one of reasonableness through the aforementioned balancing of “the need for the particular search
against the invasion of personal rights that the search
entails.” Campbell, 499 F.3d at 716 (quoting Bell, 441
U.S. at 559).12

12

Plaintiff argues that there is a difference between visual
and manual inspection of body cavities, as recognized in People v.
Hall, 886 N.E.2d 162 (N.Y. 2008), cert. denied 555 U.S. 938. (Pl.’s
Opp’n (dkt. #22) 15 n.3.) The only Seventh Circuit authority drawing this distinction the court can find is Henry v. Hulett, No. 164234, 2019 WL 3229153, at *1 (7th Cir. July 16, 2019) (“[T]he
Fourth Amendment does not apply to visual inspections of convicted prisoners but does apply to procedures that entail intrusions within prisoners’ bodies.” (internal citation omitted)).
However, Henry is inapposite because it considers the rights of
prisoners not pretrial detainees and recognizes that “strip
searches often are reasonable and thus permissible” under the
Fourth Amendment or Due Process Clause. Id. at *2.

App. 29
Here, Deputy Chief Revels’ decision to send plaintiff to a hospital to conduct a body cavity search was
permissible under the Fourth and Fourteenth Amendments if he had a reasonable basis to suspect she had
secreted methamphetamine within her person, since
that would put her and other people’s safety and security at risk with the Jail. As an initial point, there can
be no dispute that a body cavity search – whether visual or manual – is a substantial impingement on
anyone’s rights. See Mary Beth G., 723 F.3d at 1272 (reiterating that “strip searches involving the visual inspection of the anal and genital areas as ‘demeaning,
dehumanizing, undignified, humiliating, terrifying,
unpleasant, embarrassing, repulsive, signifying degradation and submission’ ” (quoting Tinetti v. Wittke, 479
F. Supp. 486, 491 (E.D. Wis. 1979), aff ’d per curiam and
adopted by 620 F.2d 160 (7th Cir. 1980)). On the other
side of the balance is the evidence Deputy Chief Revels
had indicating that plaintiff was secreting dangerous
contraband. In particular, there is no dispute that two
inmates separately reported an alleged conversation
with plaintiff to different jail staff members. While second-hand, both inmates also reported that plaintiff
was concealing a large amount of meth in her body cavity. At least Nelson provided a lot of information, which
Nurse Johnson apparently contrasted with the typical
unfounded reports she received almost weekly from inmates.
Unfortunately, the record is less clear how much of
that information she relayed to Hilleshiem or what exactly he relayed to defendant Revels. At minimum, it

App. 30
appears undisputed that Hilleshiem, Nurse Johnson
and other Jail staff decided that Brown should be sent
for a cavity search. It is also apparently undisputed
that Hilleshiem then contacted Revels for approval of
a cavity search, accurately reporting that two inmates
relayed an alleged conversation with Brown in which
she admitted concealing drugs in a body cavity.13 Additionally, Nelson informed Johnson that plaintiff had
expressed concern about possibly absorbing some of
the drugs because they were inadequately sealed,
which was presumably also relayed to Revels. If so,
that piece of information would have only added additional exigency to protect plaintiff ’s safety.14
Moreover, there appears to be no dispute that the
Jail staff discussed the situation before going to seek
13

Nurse Johnson apparently also spoke with plaintiff following Hilleshiem’s conversation with Duke, but neither side provides any detail about the substance of that conversation or how
it influenced Johnson’s decision-making process. (Johnson Dep.
(dkt. #32) 19:10-20:8 (testifying she remembered speaking with
plaintiff about the reports from her cellmates, but that she did
not remember the specifics); but see id. 28:24-29:10 (testifying
that when asked plaintiff denied having contraband on her but
that Johnson did not find the denial credible at the time, but could
not remember why).)
14
Even if not relayed to him, Revels had a reason to be concerned about this risk based on his own experience as a jail administrator. While there may be an argument that the delay at
the hospital countered the exigency of the circumstances, that delay was out of defendants’ control. Regardless, at the hospital had
plaintiff been secreting improperly sealed meth and absorbed it,
Revels certainly knew that she would have garnered better medical attention, more quickly if her condition worsened before, during or after any extraction.

App. 31
approval from Revels, who concurred and ultimately
concluded that further investigation was warranted
because of the information about plaintiff ’s possession
of contraband. See Doe v. Calumet City, Ill., 754
F. Supp. 1211, 1220 (N.D. Ill. 1990) (“[S]trip search
cases have universally demonstrated that one element
must be present for a strip search to be held reasonable: Police officers must have some level of particularized justification to strip search an individual
arrestee.”). Given the lack of any evidence that defendant Revels had reason to doubt Hilleshiem’s report (or
the Jail staff ’s judgment), no reasonable jury could find
his reliance on Hilleshiem and Johnson’s investigation
in finding reasonable suspicion for the search was objectively unreasonable. Indeed, requiring Revels to do
his own independent investigation would be inefficient
and illogical, as well as irresponsible considering the
possible danger posed to plaintiff and her cellmates by
the presence of meth. See United States v. Sawyer, 224
F.3d 675, 680 (7th Cir. 2000) (“When law enforcement
officers are in communication regarding a suspect, the
knowledge of one officer can be imputed to the other
officers under the collective knowledge doctrine.”).
While plaintiff points to Hilleshiem’s deposition
testimony that he would order a body-cavity search
any time he got a report that an inmate had contraband in their body cavity (Hilleshiem Dep. (dkt. #17)
19:3-11, 23:2-9), that testimony is beside the point.
Plaintiff ’s was only instance at the Polk County Jail
that Hilleshiem observed a staff member request a
body cavity search. Regardless, the only evidence is

App. 32
that Hilleshiem accurately passed on reports to the decisionmaker. Revels (relying on his team) concluded
that further investigation was necessary.
Also weighing in favor of reasonableness are the
manner and location in which the search was conducted. See Isby v. Duckworth, 175 F.3d 1020, at *2 (7th
Cir. 1999) (unpublished table decision) (identifying
considerations for the reasonableness of a cavity
search included: hygiene, privacy, training of those conducting the search, and whether the search was performed in a professional manner). Here, the search was
conducted at the St. Croix Hospital by a trained medical doctor; the doctor performed the search in a private
room, without observation by jail staff or non-medical
personnel; and the entire search lasted no more than
five minutes. This is consistent with the search conducted in Isby, which the Seventh Circuit concluded
was reasonable in light of the potential threat to inmate safety from the possible presence of a gun and
reasonably performed where “conducted in a private
room, by [a doctor],” despite its “intrusive” nature, the
doctor laughing before the search, and plaintiff being
held down by guards during it. Id. at *2-*4 (affirming
summary judgment). In contrast, this case is markedly
different from the “odious and extremely intrusive”
search like that found to violate the Fourth Amendment in State v. Brown, No. A17-0870, 2019 WL
3808038 (Minn. Aug. 14, 2019). There, the Minnesota
Supreme Court concluded the search was not reasonably justified” because defendant “was alert and capable of consent,” but did not, resulting in him being

App. 33
“strapped down to a hospital table” and “sedated without his consent,” while the doctor inserted “uncomfortable” instruments into his rectum, “expos[ing] and
invad[ing] a part of the body that our society considered especially private,” while “nonmedical personnel
remained in the room and observed.” Id. at *9.15
Plaintiff argues that it was still unreasonable for
the search to include her anal cavity. (Pl.’s Opp’n (dkt.
#22) 10.) Defendants respond that they lacked control
over the scope of the search. (Defs.’ Reply (dkt. #27) 57.) The court finds both arguments unpersuasive.
While there is no evidence that defendants instructed
the doctor which cavities to search (see Nurse Johnson
Dep. (dkt. #32) 39:11-40:1 (testifying that the Jail staff
did not discuss the scope of the cavity search as it
“would be up to the doctors”)), deferring to the medical
judgment of the doctor is illogical, since Jail staff determines whether a search is necessary and has the
information to make the decision as to its scope.
However, the court finds plaintiff ’s argument unpersuasive as well. Regardless of Revels’ more recent
recollection (Revels Dep. (dkt. #19) 31:5-14 (identifying
concern that plaintiff was concealing drugs in her
vagina)), the contemporaneous documents do not specify where the contraband was understood to be secreted (Progress Note (dkt. # 19-1) 1 (noting “a large
quantity of methamphetamine hidden internally”); Incident Rpt. (dkt. # 19-1) 2 (noting “a large amount of
15

The Minnesota Supreme Court applied the balancing test
from Winston v. Lee, 470 U.S. 753 (1985).

App. 34
meth inside her ‘body cavity’ ” (capitalization altered)).
While the court credits plaintiff ’s assertion that the
anal cavity search was the most offensive portion of
her ordeal, its inclusion is not enough to make the
search unreasonable on these facts. Cf. Green v.
Hallam, 105 F. App’x 858, 862 (7th Cir. 2004) (unpublished) (finding no Fourth Amendment violation
where guard digitally searched prisoner’s rectum as
plaintiff “submitted no evidence to challenge the
prison’s explanation that the guards had reasonable
cause to search [plaintiff ] based on the fact that [he]
possessed contraband, refused to cooperate, and injured a guard”).
Certainly, plaintiff has reason to question Revels’
decision to order such an invasive search of her person
based on third and fourth-hand reports of her admission, but police chiefs and deputy police chiefs must
make such judgments regularly in their positions with
lives at stake and as previously noted, the knowledge
of other officers is imputed to Revels.16 Accordingly,

16

Moreover, plaintiff has not come forward with any evidence that Revels or the other officers had a reason to doubt the
credibility of the informing inmates. See e.g., United States v.
Clark, No. 18-2604, 2019 WL 3821808, at *1 (7th Cir. Aug. 15,
2019) (criminal defendant entitled to Franks hearing where warrant application omitted “damaging information about the credibility of [the] confidential informant,” who had two pending
criminal charges, 15 prior convictions, a history of drug abuse,
was paid for his services and hoped to receive a reduced sentence).
To the contrary, it is undisputed that Hilleshiem had no reason
to doubt Duke’s report and Nurse Johnson found Nelson’s to be
credible, as opposed to “the weekly, unfounded reports she regularly received when one inmate was simply trying to get another

App. 35
because a reasonable jury could not conclude that the
body cavity search of plaintiff was unreasonable, he is
entitled to summary judgment,17 and since none of its
actors violated the Fourth Amendment, so is Polk
County.
ORDER
IT IS ORDERED that:
1)

Defendants’ motion for summary judgment
(dkt. #11) is GRANTED.

2)

Plaintiff ’s motions to reschedule the final pretrial conference or to appear via telephone
(dkt. ##36, 37) are DENIED AS MOOT.

3)

The clerk of court is directed to enter judgment for defendants and close this case.

Entered this 16th day of August, 2019.
BY THE COURT:
/s/
WILLIAM M. CONLEY
District Judge
inmate in trouble.” (See Defs.’ Reply to Pl.’s Resp. to Defs.’ PFOF
(dkt. #26) ¶¶ 25, 33.)
17
Even if this reliance could be found unreasonable on these
facts by a jury, the absence of any law holding that reliance on
multiple hearsay in finding reasonable suspicion of dangerous
contraband would entitle Revels to qualified immunity in any
event.

App. 36
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
August 18, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
KENNETH F. RIPPLE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-2698
SHARON LYNN BROWN,
Plaintiff-Appellant,
v.
POLK COUNTY,
WISCONSIN, et al.,
Defendants-Appellees.

Appeal from the United
States District Court for
the Western District of
Wisconsin.
No. 3:18-cv-391
William M. Conley,
Judge.

ORDER
Plaintiff-appellant filed a petition for rehearing
and rehearing en Banc on July 27, 2020. No judge in
regular active service has requested a vote on the petition for rehearing en Banc, and all members of the original panel have voted to deny panel rehearing. The
petition for rehearing and rehearing en Banc is therefore DENIED.

